                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 1-13020009                                                                  Page 1 of 1



         This case was opened from a proactive review which identified an awardee 1 which was
         expending an NSF award2 at a rate significantly quicker than it was budgeted. We interviewed
         the award's Program Officer3 and also requested supporting documentation from the awardee
         and reviewed the materials produced.

         Our investigation concluded that the spending identified in the proactive review was allowable.
         We did not find evidence of any actionable misuse ofNSF funds.

         This case is closed with no further action taken.




NSF OIG Form 2 (11102)
